No.
IN THE

SUPREME C OURT OF THE U NITED STATES
OCTOBER TERM, 2020

STEPHEN COMETA,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b ), that on this
30th day of December 2020, true copies of the Petition for Writ of Certiorari and the
Motion for Leave to Proceed In Forma Pauperis were sent by United States Postal
Service first class mail to the Solicitor General of the United States, Room 5614,
Department of Justice, 950 Pennsylvania Ave., N.W., Washington D.C. 20530-0001
All parties required to be served have been served.

RESPECTFULLY SUBMITTED this 30th day o

ecember 2020.

Fritz Schell r
Florida Bar No. 183113
Fritz Scheller, P .L.
200 East Robinson Street, Ste. 1150
Orlando, Florida 32789
PH: (407) 792-1285
FAX: (407) 649-1657
E-mail: fscheller@flusalaw.com
CJA Counsel for Petitioner Stephen
Cometa

